CERTIFICE OF COMPLIANCE
No. 19DARRU K. "KEN" HSU, individually, and as trustee of THE DARRU K. HSU
and GINA T. HSU LIVING TRUST U/A 05/05/03, individually and on Behalf of
All Others Similarly Situated,
Petitioner,
v.
UBS FINANCIAL SERVICES; INC.
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the revised
Petition for Writ of Certiorari contains 6968 words, excluding the
parts of the petition that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the forgoing is true and correct
in compliance with 28 U.S.C. ยง 1746.
Executed on February 9, 2020

Darru K. Hsu
Pro se
s/ Darru K. Hsu
5538 Momingside Dr.
San Jose, CA 95138

